<html>
<title> - PLAIN LANGUAGE REGULATIONS: HELPING THE AMERICAN PUBLIC UNDERSTAND THE RULES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
PLAIN LANGUAGE REGULATIONS: HELPING THE AMERICAN PUBLIC UNDERSTAND THE 
                                 RULES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON REGULATORY AFFAIRS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2006

                               __________

                           Serial No. 109-132

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-090                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCMIDT, Ohio                        (Independent)
------ ------

                      David Marin, Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

                   Subcommittee on Regulatory Affairs

                 CANDICE S. MILLER, Michigan, Chairman
GINNY BROWN-WAITE, Florida           STEPHEN F. LYNCH, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
LYNN A. WESTMORELAND, Georgia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                       Ed Schrock, Staff Director
                Joe Santiago, Professional Staff Member
                           Alex Cooper, Clerk
            Krista Boyd, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 1, 2006....................................     1
Statement of:
    Cheek, Dr. Annetta, vice-chair, Center for Plain Language....    13
    Kimble, Joseph, law professor, Thomas Cooley School of Law...     7
    McCracken, Todd, president, National Small Business 
      Association................................................    23
Letters, statements, etc., submitted for the record by:
    Cheek, Dr. Annetta, vice-chair, Center for Plain Language, 
      prepared statement of......................................    16
    Kimble, Joseph, law professor, Thomas Cooley School of Law, 
      prepared statement of......................................    10
    McCracken, Todd, president, National Small Business 
      Association, prepared statement of.........................    26
    Miller, Hon. Candice S., a Representative in Congress from 
      the State of Michigan, prepared statement of...............     4


PLAIN LANGUAGE REGULATIONS: HELPING THE AMERICAN PUBLIC UNDERSTAND THE 
                                 RULES

                              ----------                              


                        WEDNESDAY, MARCH 1, 2006

                  House of Representatives,
                Subcommittee on Regulatory Affairs,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2247, Rayburn House Office Building, Hon. Candice Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller and Lynch.
    Staff present: Ed Schrock, staff director; Rosario 
Palmieri, deputy staff director; Kristina Husar and Joe 
Santiago, professional staff members; Alex Cooper, clerk; 
Krista Boyd, minority counsel; and Teresa Coufal, minority 
assistant clerk.
    Mrs. Miller of Michigan. I would like to call the meeting 
to order. Good morning, everyone. We certainly appreciate your 
attendance here today.
    The American public is often frustrated by regulations 
because they don't understand, often times, what these rules 
actually mean. Citizens are so confused by the ``language of 
the bureaucrats'' that they question whether or not a 
regulation applies to them. Americans want regulators to write 
the rules in simple English--easy to read and easy to 
understand and easy to follow, and, therefore, easy for them to 
actually comply with the rules.
    For centuries actually, government officials have proposed 
that rules be written in plain language. In fact, James Madison 
wrote in the Federalist papers that ``it will be of little 
avail to the people if the laws be so voluminous that they 
cannot be read or so incoherent that they cannot be 
understood.''
    If the Founding Fathers read the Code of Federal 
Regulations today, they would be simply amazed at the 
complexity of the regulations put forth by our government.
    One agency drafted a rule that said--this was an example we 
pulled out here. This is what this rule said: ``When the 
process of freeing a vehicle that has been stuck results in 
ruts or holes, the operator will fill the rut or hole created 
by such activity before removing the vehicle from the immediate 
area.'' I think anyone seeing this has to read it several times 
before understanding what the requirement actually said.
    Plain language techniques are used to clarify requirements 
and remove clutter, so stating this example plainly, the rule 
should have read: ``If you make a hole while freeing a stuck 
vehicle, you must fill the hole before you drive away.''
    The use of plain language in crafting regulations is a 
common sense approach to saving the Federal Government and the 
American people time, effort, and money. By writing the 
regulation in plain language, everyone, from the small business 
owner who must comply with the regulation to the agency that 
enforces it, will know the regulation's purpose, requirements, 
and consequences.
    Every year, Federal agencies write and enforce thousands of 
rules that range from allowing boat races on various waterways 
to registering food facilities to prevent bioterrorism. 
However, the average American citizen or small business owner 
affected by these rules often times does not fully understand 
their impact and their compliance requirements. Many 
regulations use ambiguous terms, complex sentences, and jargon 
that only a few understand.
    You shouldn't have to be a lawyer to figure out if you 
qualify for a small business loan. Citizens can find themselves 
facing sanctions and penalties because they fail to understand 
the requirements within the rules. They want to comply with the 
law, but the complexity of many rules inherently causes a 
failure to comply.
    And I wanted to give one other example, as well, if you can 
bear with me. Before using plain language, a Department of 
Commerce rule said: ``After notification of the NMFS,'' which 
is the National Marine Fisheries Service, ``this final rule 
requires all CA/ORDGN vessel operators to have attended one 
skipper education workshop after all workshops have been 
convened by NMFS in September 1997. CA/ORDG and vessel 
operators are required to attend Skipper Education Workshops at 
annual intervals thereafter unless that requirement is waived 
by the NMFS. NMFS will provide sufficient advance notice to 
vessel operators by mail prior to convening workshops.''
    After they actually revised the rule trying to use plain 
language techniques, any vessel operator would know that the 
requirements of that rule were, ``after notification from NMFS, 
vessel operators must attend a Skipper Education Workshop 
before beginning to fish each fishing season.''
    Congress knows that American citizens and businesses still 
struggle to understand the many rules that they need to follow, 
which are confusing and unreadable.
    The need for readable regulations continues. Therefore, I 
am pleased to announce that Mr. Lynch, who is my Ranking Member 
and should be here shortly, and I have introduced a piece of 
bipartisan regulation--excuse me--legislation, H.R. 4809, which 
is the Regulation and Plain Language Act of 2006.
    This will require agencies to incorporate the concepts of 
plain language into their rulemaking process. By requiring 
agencies to use plain language, the public will be able to 
participate in the regulatory process in a more meaningful and 
substantive manner.
    I am eager to have a dialog about how regulators can 
incorporate these concepts in drafting regulations for the 
American public. As one of today's witnesses wrote in 1996, 
``using plain language 1, streamlines procedures and paperwork, 
and 2, reduces confusion, complaints, and claims and improves 
customer satisfaction.''
    And I certainly look forward to the testimony of all our 
witnesses today.
    [The prepared statement of Hon. Candice S. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T7090.001
    
    [GRAPHIC] [TIFF OMITTED] T7090.002
    
    Mrs. Miller of Michigan. Before we start our witnesses, 
their testimony, let me just remind you of the light system 
that we have. Do they have their lights there? Oh, you see them 
here?
    These lights, when they light up, you will see--you have 5 
minutes for your testimony, but we have a little bit of time 
here, so if you go over a little bit, I am not going to hold 
you to that. But when you see the yellow light, you will know 
that you have 1 minute remaining on that, so--and as you know, 
we do have a joint session of the House at 11 o'clock, so we 
have that time constraint as well.
    And because we are members of the Government Reform 
Committee, we have a policy that we swear in all of our 
witnesses before testimony is given.
    So if you could all rise and raise your right hand.
    [Witnesses sworn.]
    Mrs. Miller of Michigan. Thank you. I appreciate that.
    Our first witness is Mr. Joseph Kimble, and the staff had 
written me a very nice intro, but I think I am just going to 
read it from the back of the book that you just gave me here.
    Joseph Kimble has taught legal writing for more than 20 
years at Thomas Cooley Law School, and we appreciate you coming 
from Michigan. That is a fantastic law school.
    Mr. Kimble. Thank you.
    Mrs. Miller of Michigan. He has also lectured throughout 
the United States and abroad. He is the editor-in-chief of the 
Scribes Journal of Legal Writing; the long-time editor of the 
Plain Language column in the Michigan Bar Journal; the 
president of the International Organization, Clarity; and the 
drafting consultant of all Federal Court rules.
    He recently led the work of redrafting the Federal Rules of 
Civil Procedure. He lives in Okemos, MI, where he spends time 
listening to blues and playing a little bit of basketball.
    So we welcome you, Mr. Kimble, to our hearing today. We 
look forward to your testimony, and actually before you start, 
as Ranking Member Lynch has joined us now, if you would like to 
give your opening statement before we begin, you are 
recognized.
    Mr. Lynch. Thank you, Madam Chair. I appreciate it.
    One thing I find here in Washington is they schedule 
everything at the same time, so you have to constantly go back 
and forth.
    I am delighted to be here and, Madam Chair, I just want to 
thank you for your great work on this issue, and for holding 
this hearing.
    I have long remarks. I won't give them. But I think 
Governor Al Smith of New York year ago in talking about how 
convoluted the regulatory process was in New York at that time 
said it best. He said, ``in order for us to guarantee the 
citizens the liberties, the freedoms, the rights that they 
deserve through their government, they must have a government 
that they can understand.'' And I think that is the object of 
this bill, and I think that is the object of our efforts here 
in a general sense of this committee, and I am delighted to be 
working with Chairman Miller on this, so--and I certainly 
welcome your remarks. Thank you.
    Mrs. Miller of Michigan. Thank you. Professor Kimble.

STATEMENT OF JOSEPH KIMBLE, LAW PROFESSOR, THOMAS COOLEY SCHOOL 
                             OF LAW

    Mr. Kimble. Thank you. Thank you, Madam Chair. Welcome from 
Michigan and from Thomas Cooley Law School. And thank you to 
Mr. Lynch for this opportunity. I am delighted to have the 
chance to testify about this very important plain-language 
bill.
    I would like to talk mainly about two things: the benefits 
that this bill will produce, and some of the bad opposing 
arguments that you are likely to hear.
    First, the benefits. I have spent considerable time 
collecting empirical studies about the benefits of plain 
language. I have collected dozens of them. And they appear in 
the two articles that I have included in the record, and I 
think you have little blue off-prints up there--``Writing for 
Dollars, Writing to Please,'' one article and the other is 
``Answering the Critics of Plain Language.'' I might mention 
that I have even since I have written those two articles, I 
have collected more studies and I will be merging them into a 
book later this year, so stay tuned.
    Now, for the most part, I will stand on the evidence of 
those two articles. But let me give you just a couple of 
examples.
    In ``Writing for Dollars,'' on page 9, for instance, you 
will find a study done by the Department of Veterans Affairs. 
They revised one letter--just one form letter, mind you--and 
tested the results. In 1 year, in one regional VA call center, 
the number of calls received dropped from about 1,100 in 1 year 
to about 200.
    Now, this was one paper at one office of one government 
agency. Multiply that one paper by every form, letter, notice, 
flyer, bulletin, booklet, manual, and other public document 
sent out in huge numbers by every office, division, department, 
and agency of the government. I mean it is incredible.
    Plain language may not be a sexy subject, but I believe 
that the cost of poor communication is the great hidden waste 
in government--untold millions and billions.
    And it is not just the cost to government, as you have 
mentioned. Think of the ill-will created by unclear public 
information, the confusion and anger and frustration that it 
causes people who have to make phone calls, who can't fill out 
a form, who don't understand their rights or benefits, who make 
mistakes in trying to follow procedures and so on.
    Let me highlight a couple of the other studies in ``Writing 
for Dollars.'' For instance, the one on page 12, involving U.S. 
Naval officers. Officers who read a plain-language version of a 
memo, besides having significantly higher comprehension, took 
17 percent to 23 percent less time to read it. The researchers 
figured that if all Naval personnel routinely read plain 
documents, the time saved would amount to $250 to $350 million 
a year--just in time saved.
    Or how about the study of Army officers on page 28? The 
researchers found that readers of a plain-language memo were 
twice as likely to comply with it on the same day that they 
received it. And, again, one study after another summarized in 
those two articles.
    In short, there is now compelling evidence that plain 
language saves money--enormous amounts of money--and pleases 
readers. It is much more likely to be read and understood and 
heeded in much less time. I think it could even help to restore 
faith in public institutions.
    So why shouldn't we do this? Don't readers of public 
documents have the right to understand the rights and 
requirements that affect their lives from cradle to grave? And 
that leads to my second topic--opposing arguments, bad opposing 
arguments that you may likely hear.
    You will hear, for instance, that you can't write plainly 
and at the same time be precise and accurate. Don't believe it. 
It is a great myth. And my articles I think have the empirical 
evidence. In fact, the evidence is just the opposite. Plain 
language is more precise than traditional legal and official 
style. I hesitate to say legalese and officialese, but--because 
plain language lays bare all of the ambiguities and 
inconsistencies and uncertainties and mistakes that traditional 
style, with all its excesses, tends to cover up. It happens 
every time you peel back the layers, as anyone who has been 
involved in a plain-language project can tell you. It happened 
repeatedly as we worked through the Federal Rules of Civil 
Procedure.
    You will also hear that plain language is beneath the 
dignity of professional writers. Thus, we get various 
disparaging descriptions--baby talk, dumbing down, 
unsophisticated, anti-intellectual, ugly and drab. Don't 
believe it.
    In fact, once again, just the reverse is true. Any second-
rate writer can make things more complicated. Only the best 
minds and the best writers can cut through. It takes skill and 
hard work to write in plain language. And besides, have you 
ever heard anyone complain that a public document is too clear, 
too simple? Remember what Walt Whitman said, ``the art of art, 
the glory of expression, is simplicity. Noting is better than 
simplicity.''
    Far from being beneath the dignity of good writers, plain 
English is--or should be-the American idiom.
    Next, you may hear that government information sometimes 
deals with complex subjects and needs to use technical terms. 
That is true, but why compound the difficulty with poor 
writing? As for technical terms, of course some writing needs 
to use technical terms, but they are a small part, a tiny part 
of most documents. And even then, you can usually explain 
technical terms in a way that most readers will understand.
    Finally, you will hear the argument that this bill will 
require some up-front costs to train writers. I suppose that is 
true. But why shouldn't our public writers acquire the skills 
needed to communicate clearly with the public. That is their 
job. And there are resources available at reasonable rates.
    The Federal interagency group PLAIN offers basic training 
for free. That is pretty reasonable for government employees, 
and, of course, there are lots of books and articles out there 
on how to write plainly. And whatever the up-front costs might 
be, I hope I have made the case that they will pale in 
comparison with benefits.
    Just two points in conclusion. If you would like to see the 
difference between overcomplicated writing and plain language, 
you have already given--Madam Chair have already given a couple 
of examples. If you would like to see another familiar example, 
check out pages 34 to 37 of ``Writing for Dollars.'' I rewrote 
the exit-seat card that you will find in the exit row of most 
airplanes. It is a hoot. And as a matter of fact, we had some 
slides ready to show you the before and after----
    Mrs. Miller of Michigan. They are in the packet.
    Mr. Kimble [continuing]. But the technology failed us, but 
they are in the package, and you will see some slides for this 
exit seat card. And, of course, it goes--the original goes for 
about what?
    Mrs. Miller of Michigan. Six pages.
    Mr. Kimble. Six pages, seven slides. You know, the person 
lacks sufficient mobility, strength, or dexterity in both arms 
and legs and hands to reach upwards, sideways, and down where 
to the location of the emergency exit, and exit slide operating 
mechanisms, blah, blah, blah. It goes on like that for about 6 
pages, and you will see at the end my re-write, which is about 
half a page. And that card is copied verbatim from the Code of 
Federal Regulations.
    The American public needs and deserves clear information 
from its government. They deserve government writers who have 
the will and the skill to accomplish that. And this bill can 
help to make it happen. We need this bill, or it won't happen. 
The bill may seem like a small thing, but it has tremendous 
implications in all the ways that I have tried to describe. 
Thank you.
    [The prepared statement of Mr. Kimble follows:]

    [GRAPHIC] [TIFF OMITTED] T7090.003
    
    [GRAPHIC] [TIFF OMITTED] T7090.004
    
    [GRAPHIC] [TIFF OMITTED] T7090.005
    
    Mrs. Miller of Michigan. Thank you very much. Our next 
witness this morning is Dr. Annetta Cheek. Dr. Cheek is the 
vice chair of the Center for Plain Language, and is the founder 
and chair of the U.S. Plain Language Action and Information 
Network.
    Dr. Cheek is an anthropologist by training, earning a Ph.D. 
from the University of Arizona in 1974. Most of her Federal 
career has been in writing and implementing regulations. She 
became interested in the plain language movement and has worked 
to spread the use of plain language across the government.
    Dr. Cheek, the floor is yours.

 STATEMENT OF DR. ANNETTA CHEEK, VICE-CHAIR, CENTER FOR PLAIN 
                            LANGUAGE

    Ms. Cheek. Thank you very much. It is an honor to be here 
to support this bill.
    Poor writing isn't restricted to the Federal Government, 
but I think the Government has a high responsibility to 
communicate clearly with the American public.
    I am stunned at a lot of the material that I read, 
particularly in regulations, and I will do a few readings 
myself, if you will bear with me. Here is a great one from the 
Department of Justice, which is a primary source for poorly 
written regulations. ``The amount of expenses reimbursed to a 
claimant under this subpart shall be reduced by any amount that 
the claimant receives from a collateral source. In cases in 
which a claimant receives reimbursement under this subpart for 
expenses that also will or may be reimbursed from another 
source, the claimant shall subrogate the United States to the 
claim for payment from the collateral source up to the amount 
for which the claimant was reimbursed under this subpart.''
    You obviously would need your lawyer to help you understand 
that. We think it says, ``if you get a payment from another 
source, we will reduce our payment by that amount to you, by 
the amount you get. If you already got payments from us and 
from another source for the same expenses, you must pay us 
back.''
    There are now over 200,000 pages in the Code of Federal 
Regulations. You should take an opportunity sometime to look at 
them all together in a library. It is a huge volume of poorly 
written material. And the big problem with them is that 
agencies and the private sector use them as the model for other 
documents. Joe's example of the exit card is prime example. The 
airlines are not required to use exactly the same language in 
the regulation, but they do. And this is multiplied hundreds of 
thousands of times across the country.
    I think there are two reasons for this. First, it is 
easier. Writing clearly is hard work. It is not simple. The 
product looks simple, but the process is not simple, and part 
of the problem is you have to think clearly before you can 
write clearly.
    Second, a lot of people, particularly in the private 
sector, think it is safer to just copy the language of the 
regulation. If they take the trouble and time and effort to 
rewrite it, they also believe that they may be running the risk 
of being accused of not complying, so it is just safer to go 
ahead and copy that lousy language, even if the implication is 
that people are not going to understand, and, therefore, they 
may not be getting the job done.
    Let us take a quick look at a few more examples, because I 
think the best way to bring this message home is to look at 
some examples, and again we would have had slides, but 
fortunately, I made copies, and I will skip the first two, 
because they are the longest ones, and I will skip one of the 
others, because you already read it for me.
    Here is one from the Bureau of Indian Affairs, and this one 
and the one you read, which was a Park Service reg, the agency 
has redone the reg into plain language.
    ``If the location of the land is in a State other than the 
State in which the tribe's reservation is located, the tribe's 
justification of anticipated benefits from the acquisition will 
be subject to greater scrutiny.''
    And they rewrote it to say: ``If the land is in a different 
state than the tribe's reservation, we will scrutinize your 
justification of anticipated benefits more thoroughly.''
    And then my second one was the stuck vehicle, which was the 
Park Service reg. Then I have two more short examples.
    These, unfortunately, are Department of Justice regulations 
that they have not rewritten, and I have taken a stab at doing 
it myself.
    ``When a filing is prescribed to be filed with more than 
one of the foregoing, the filing shall be deemed filed as of 
the day the last one actually receives the same.''
    We think it means ``we consider a filing to have occurred 
when all those who must receive the filing have received it.''
    And finally, ``no payment shall be made to or on behalf of 
more than one individual on the basis of being the public 
safety officer's parent as his mother or on that basis as his 
father.''
    Again, we think this means ``we will pay only one person 
claiming to be the public safety officer's father and only one 
claiming to be the mother.'' This was about benefits going to 
the parents of deceased policemen and firemen and so on.
    But that one is still on the books. These few examples show 
what is possible when we take the time to write clear 
regulation, but I would challenge you to find even 5,000 pages 
out of those 200,000 that are written in a way that the 
intended reader can understand them.
    If we get this bill, the benefits to the American people 
will be incalculable, and the savings for the Federal 
Government will be huge.
    A veteran who needs medical help will be able to understand 
what she needs to do. A small business owner will be able to 
claim tax benefits and other considerations to which he is 
entitled. A school wanting to comply with the No Child Left 
Behind Act will be able to figure out what to do without 
reading the regulation five times. A senior citizen or hospital 
or pharmacy will be able to understand immediately what 
Medicare or drug benefits apply.
    There are many Federal employees who want to bring the 
benefits of plain language to the American public. By passing a 
plain language bill, you will give them a powerful tool and 
more importantly you will improve the lives of millions of 
Americans.
    Thank you very much.
    [The prepared statement of Ms. Cheek follows:]

    [GRAPHIC] [TIFF OMITTED] T7090.006
    
    [GRAPHIC] [TIFF OMITTED] T7090.007
    
    [GRAPHIC] [TIFF OMITTED] T7090.008
    
    [GRAPHIC] [TIFF OMITTED] T7090.009
    
    [GRAPHIC] [TIFF OMITTED] T7090.010
    
    [GRAPHIC] [TIFF OMITTED] T7090.011
    
    [GRAPHIC] [TIFF OMITTED] T7090.012
    
    Mrs. Miller of Michigan. Thank you, Dr. Cheek.
    And our final witness this morning is Mr. Todd McCracken. 
Mr. McCracken currently serves as the president of the National 
Small Business Association, which is the Nation's oldest small 
business association. As director of its government affairs 
branch, Mr. McCracken develops their policies on a variety of 
government-related issues and the strategies to implement them.
    He is a native of New Mexico. Mr. McCracken is a graduate 
of Trinity University in San Antonio, with a B.A. in Economics. 
Mr. McCracken, we certainly welcome you and look forward to 
your testimony, sir.

STATEMENT OF TODD MCCRACKEN, PRESIDENT, NATIONAL SMALL BUSINESS 
                          ASSOCIATION

    Mr. McCracken. Thank you very much. I appreciate the 
opportunity to be here.
    As you said, I represent the small business community, and 
I think there is, you know, there is no other constituency of 
the country that has on which these regulations and the way 
they are written has a more profound effect, because they not 
only have to deal with them as individuals, they have to deal 
with the regulations as businesses, and they deal with the 
broad cross section, from tax rules individually and tax rules 
in their businesses and all the government agencies that 
influence them.
    And small businesses are much more profoundly affected by 
regulations and their readings of them than large businesses 
are. As you are probably aware, a recent study published by the 
SBA's Office of Advocacy showed that the typical small company, 
defined as fewer than 20 employees, pays on average--it costs 
them on average $7,000 per employee to comply with Federal 
regulations. That is 60 percent more than the average large 
company. And a lot of those costs are in the--you know--paying 
somebody to figure out what they are supposed to do, whether it 
is paying somebody to figure out how to run their 401(k) plan 
or paying an accountant to do their taxes.
    I mean many of the smallest companies, especially sole 
proprietors, ought not have to pay a CPA to figure out how to 
do their tax return, but an extremely high percentage of them 
do. I don't have an exact number, but anecdotally, it is 
extremely high.
    So the impact on the small business community is enormous, 
and it is not just the money. I throw out a $7,000 figure, but 
the reality is in a small company, the business owner is the 
CFO, the CEO, the CIO, and now they are dealing with all these 
regulations day in and day out. They simply don't have the time 
and the wherewithal to figure out what they are supposed to be 
doing. And time really is at the crux of what small business 
life is all about.
    They want to spend their time on how to reach new markets, 
develop new products, get new customers rather than trying to 
figure out what they are supposed to be doing in complying with 
the Federal Government.
    So the lack of plain language really does have a huge 
impact on the small business community--and I think has been 
extremely well stated by the folks who came before me.
    And one of the things I want to sort of take a little bit 
of time to point out is that not just--to talk about not just 
the end product, and how small businesses can figure out what 
to comply with, but also of the regulatory process.
    The reality is that one of the reasons--certainly not the 
only reason--but one of the reasons that dollar figure for 
small companies is so much larger than for bigger companies is 
because the regulatory process is so fundamentally skewed to 
larger companies.
    I mean they have a much better ability to have an impact on 
the regulatory process because, to a large degree, of the 
language that is used. I mean they are able to hire experts and 
attorneys to file comments, to figure out how exactly this is 
going to affect their company or not affect their company, and 
really have an impact while that regulation is under 
development. The typical small company, even if they are aware 
the regulatory process is ongoing certainly does not have the 
wherewithal to have the level of input that the larger 
companies do as the regulation is developed.
    Plain language I think is not a panacea, but clearly would 
help with that if the proposed regulations are written in a way 
that a small company could really understand how this would 
affect them, and give that input. I mean and it is not just a 
matter of reducing the burden. I think in that comment period, 
the Federal Government really I think is--or should be--looking 
for a way to craft a better regulation to improve it, to make 
sure that it really affects the way people run their businesses 
and operate their lives, and it is as efficient as possible.
    And if people don't understand what they are trying to do 
or why they are trying to do it or how it is going to affect my 
company, they can't provide that kind of input.
    One of the ways that we do that now is through a so-called 
panel process, where they actually--some agencies, not all--but 
some agencies are required to have small business experts come 
in and give them input early on in the process.
    But this is a way I think to really amplify that and to 
bring that benefit to all agencies, not just those handful that 
are required to do these panels.
    But my last comment I think comes down to enforcement. I 
mean, the Regulatory Flexibility Act, as you may know, was 
passed in 1980 and really did almost nothing to affect the 
lives of small businesses and the regulatory process for 16 
years, because Congress didn't give it any teeth. I mean there 
was nobody who was saying, you know, you have to follow this 
law. You have to do these things the Congress laid out. It 
wasn't until 1996 when it finally got judicial review and a 
little bit more authority also for the SBA's Office of Advocacy 
that law has finally begun to have a real impact.
    And so what I would say is even though we have on the 
books, through an Executive order, a requirement that agencies 
do plain English and there have been some limited attempts at 
that, it is clearly insufficient, and I think the primary 
reason is really a lack of enforcement. There is nobody that is 
telling them they have to do it.
    So that really is the key moving forward we believe is to 
have something that is clearly a hammer I guess at the end of 
the day to make sure this is done.
    Thank you very much.
    [The prepared statement of Mr. McCracken follows:]

    [GRAPHIC] [TIFF OMITTED] T7090.013
    
    [GRAPHIC] [TIFF OMITTED] T7090.014
    
    [GRAPHIC] [TIFF OMITTED] T7090.015
    
    [GRAPHIC] [TIFF OMITTED] T7090.016
    
    [GRAPHIC] [TIFF OMITTED] T7090.017
    
    [GRAPHIC] [TIFF OMITTED] T7090.018
    
    [GRAPHIC] [TIFF OMITTED] T7090.019
    
    Mrs. Miller of Michigan. Well, we certainly appreciate all 
of your testimony. Again, because we have the joint session at 
11 a.m., we will have about 10 more minutes here with our 
hearing.
    You know I first became actually interested in this whole 
concept of plain language in the job that I had before I came 
to Congress. I was a Michigan Secretary of State, as Dr. Kimble 
recalls. You probably still have my name on your driver's 
license there, but my principal responsibility actually was 
serving as the chief elections officer. And I could remember 
before I got the job looking at some of the ballot proposals 
that we had on our statewide ballots and you know really 
important issues like amending our State constitution or 
whatever, and I mean honestly, you could not understand--you 
know, you would read it and read it, and then you thought, 
well, if you voted no, it meant yes. Or if you vote yes, it 
meant no.
    And it just wasn't plain, and I thought that was so 
ridiculous. And then I like to think of myself as sort of a 
common sense approach to government, whatever my jobs were, so 
I certainly have had an interest in this and am very 
appreciative of the bipartisan effort that Congressman Lynch 
and I have with the piece of legislation that we have just 
introduced.
    But could you, Professor Kimble, perhaps give us--or any of 
you--could you give us some ideas or observations of any 
Federal agencies that are really doing well in trying to write 
plain language?
    Mr. Kimble. Well, Dr. Cheek would know more about that, 
because she works with Federal agencies.
    Ms. Cheek. I think at this point probably the Veterans 
Administration, particularly Veterans Benefits. They have had a 
massive project since about 1993 or 1994 called reader-focused 
writing, but that has focused not so much on regulations, 
though they have done a couple regulations over. That is 
focused mainly on their letters to veterans.
    And I think overall, they do the best job of letters. When 
agencies ask me where can I get advice about letters, I send 
them to Veterans Benefits.
    Mrs. Miller of Michigan. You used the DOJ as an example----
    Ms. Cheek. As a bad example.
    Mrs. Miller of Michigan [continuing]. As a bad example, 
with all those attorneys there, but that is----
    Ms. Cheek. I am afraid so. You know some of the strongest 
supporters of plain language are attorneys and some of the 
strongest opponents are attorneys. And DOJ is certainly a 
homeland of obscure writing, no question about it.
    NIH has been doing a lot with their public medical 
information. IRS has finally started working on some of their 
forms trying to get them to be written more clearly.
    With regulations it is pretty thin. They are scattered. 
Securities and Exchange Commission wrote a regulation requiring 
financial institutions to write parts of their financial 
disclosure documents in plain language, and their reg itself is 
pretty good.
    The Department of Interior has a big handful of clear 
regulations. FAA, which is where I work now, has a couple that 
are good and overall have improved. But I think the regulatory 
aspects lag behind even the few puny efforts in the public 
information area.
    Mrs. Miller of Michigan. I might ask Mr. McCracken. You 
know we actually--this subcommittee has had a number of 
different hearings about--and we have cited the--some of the 
numbers that you used in your testimony about $7,000 per 
employee for small businesses just to comply with the 
regulations and those kinds of things.
    Has your association had much conversation, not only of the 
burden of regulatory acts, government burden on regulatory acts 
on small businesses, etc., but have you really looked at just 
the plain language. Have you had quite a bit of discussion 
about the inability of people to even understand these 
regulations?
    Mr. McCracken. We have, and we have been searching for 
solutions. We are hopeful that your legislation can take us in 
that direction, but clearly when you get small business owners 
in a room to talk about Federal regulations, it quickly moves 
to that. It is not simply a question of the rule itself is too 
burdensome, although that clearly is often the case, but the 
lack of understanding of what they are even supposed to do, 
combined with the frustration that they are then, you know, 
fined based on their inability to understand what they are 
supposed to do.
    I would really like to also add onto--I think it was Dr. 
Cheek that made the comment about these regulations then 
providing a model for what other people do, too. I think that 
is really important to understand, because small business 
owners often look to others, whether they are law firms or 
trade associations or someone else to provide them sort of 
interpretation sometimes of these regulations, which is itself 
I think sort of sad.
    But to the extent they do, often those folks also feel 
somewhat inhibited in reinterpreting them for people, because 
they feel like they have some liability if they get it wrong.
    So I would encourage that to be something that the 
committee might be--might look at is could there be some 
provision to hold harmless some of those advisors if they are 
making a good faith effort to interpret the regulations as they 
see them, because that also could really help. It wouldn't 
improve necessarily the Federal regulation, but it would 
certainly improve the ability of small business owners and 
others to figure out what they are supposed to do.
    Mrs. Miller of Michigan. Thank you. Representative Lynch.
    Mr. Lynch. Sure. Just a couple things. As you mentioned, 
Mr. McCracken, that there were earlier efforts to try to get at 
this problem I think by Executive order and by memorandum as 
recently as 1998--President Clinton. But there has been no 
teeth, as you say. There has been no enforcement.
    Given the fact--and this is a question for all three of you 
here, and thank you very much for coming here and helping us 
with this.
    Mr. Kimble. Pleasure.
    Mr. Lynch. Given the fact that a lot of this depends on the 
audience--in other words, the problem we are having is that the 
general tax code, which should be understood by the average 
taxpayer, is written in terms that are more akin to the 
technical specs for the Space Shuttle, you know, so you have--
it is the audience. And, you know, and some of the technical 
specs for NASA and for the Nuclear Regulatory Commission and 
for their audience must necessarily be complex.
    So in terms of the enforcement part of this, how do you see 
that working from industry to industry, where the audience is 
so different and the necessity there is very disparate in terms 
of what must be conveyed, what information must be conveyed. Do 
you have any recommended models that might address that issue?
    Mr. McCracken. I don't have a specific model. Maybe someone 
else does.
    Ms. Cheek. Well, I would like to make clear--and this is 
often misunderstood--that plain language, our definition of 
plain language is it is language that the intended reader can 
understand the first time, so it is not the same for everybody. 
It is audience specific.
    And what it comes down to, frankly, is testing a few 
documents to make sure that they can really read it. Now, 
obviously, we can't test all documents, but I think Veterans 
Benefits is a very good model, because they tested a few 
documents, and with a kind of testing called protocol testing, 
which means each document would be tested with just three or 
four people and you would sit down and you would say read the 
first sentence and then tell me what it means rather than 
asking do you understand this, because people naturally will 
say, oh, yeah, sure, I understand, even when they don't.
    And because they tested the documents, just a few of them, 
they found out what the principles were that they needed to 
follow in writing other documents.
    So now, they just test very occasionally to make sure they 
are still on track. It is not that huge a burden, and the 
payoff in time saved is tremendous.
    So I think that model works. It is not the easiest thing, 
and there are other ways that aren't as effective that you can 
also use, but I think that is a good model.
    Mr. Kimble. Exactly right. Testing is a very important part 
of plain language and again it involves some modest up-front 
costs to have readers look over a form or look over a letter, 
typical readers, and the--and as soon as--it can be done with 
as few as 10 or 15 people. And the problems in the document 
will surface almost immediately. And imagine again, against 
those up-front costs, the savings if you can reduce the error 
rate on a form letter that goes out by the thousands and the 
hundreds of thousands. If you can reduce the error rate by 10 
or 20 percent, you are talking again huge amounts of money 
saved.
    Ms. Cheek. Actually, you can do it with 9 people, and then 
that way you don't have to go to OMB to get permission under 
the Paperwork Reduction Act.
    Mr. McCracken. And I don't believe, for the most part, 
Federal regulators set out to write documents no one could 
understand, so I do believe that if there is some testing and 
some lessons learned, that will carry over even to the 
documents that aren't specifically tested.
    Mr. Kimble. And a little bit of training.
    Mr. Lynch. Yeah. OK.
    Ms. Cheek. I was teaching a class the other day to a bunch 
of people that write Exhibit 300's, which are these horrible 
financial documents that go to OMB to justify IT expenses. And 
I had pulled out some examples from last year, some sentences 
to use as examples in the class, and I read this one, and the 
one guy starts, you know, sort of scratching around in his 
seat, and I said, did you write that? He said, yes. I said, 
well, what does it mean? He said, I don't know.
    Mrs. Miller of Michigan. That is scary.
    Mr. Lynch. A little honesty.
    Mrs. Miller of Michigan. OK. Well, we certainly appreciate 
all of you traveling to Washington and testifying today. It has 
been very interesting, and again the bill number, which we just 
dropped in the hopper last night while we were voting, is H.R. 
4809, and this is our bipartisan legislation. It is pretty 
simple. It basically is requiring Federal agencies to write 
regulations in plain, understandable English and it defines 
plain language actually for the first time in Federal law, so 
anything that any of you can do to talk to some other Members 
of Congress to assist us with this would be very helpful as 
well.
    We appreciate your attendance.
    Ms. Cheek. Thank you.
    Mr. Kimble. Thank you.
    Mrs. Miller of Michigan. Thanks so much.
    [Whereupon, at 10:50 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
